D: +1 212 225 2490
jblackman@cgsh.com

September 14, 2021
Scott S. Harris, Esq.
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: Weiss, et al. v. National Westminster Bank, PLC, No. 21-381
Dear Mr. Harris,
I am counsel of record for Respondent National Westminster Bank, PLC (“NatWest”) in
the above-referenced case. I write to request a 31-day extension of time, to and including
November 8, 2021, for NatWest to file any brief in opposition to the petition for a writ of
certiorari filed by Petitioners. See S. Ct. R. 30.4. The petition was filed on September 3, 2021
and docketed on September 8, 2021; absent an extension, any brief in opposition would be due
on October 8, 2021.
NatWest has received notice from several groups of amici curiae of their intention to file
amicus briefs in support of Petitioners. See S. Ct. R. 37.2(a). The requested extension is
warranted to ensure that NatWest will be able to address those briefs, as appropriate, in any brief
in opposition.
Thank you very much for your consideration.
Respectfully,
CLEARY GOTTLIEB STEEN & HAMILTON LLP

JONATHAN I. BLACKMAN

S. Harris, p. 2
cc:

Thomas C. Goldstein
Tejinder Singh
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tg@goldsteinrussell.com
Peter Raven-Hansen
Gary M. Osen
Michael Radine
Ari Ungar
OSEN LLC
190 Moore Street
Suite 272
Hackensack, NJ 07601
James P. Bonner
FLEISCHMAN BONNER &
ROCCO LLP
81 Main Street, Suite 515
White Plains, NY 10601

